No. _

In The
Supreme Court of the United States

tess _ A
SHERARD MARTIN, «
Petitioner,
Vv.

DAVIS MARINEZ, et. Al.,
Respondents.
A

Petition for a Writ of Certiorari to the
United States Court of Appeals,
Seventh Circuit

PROOF OF SERVICE
I declare that: 1 am a resident of Cayucos, California. I am over the age of
18 years and not a party to the within entitled cause. My name and address is
Richard Kleinhammer 16228 Morro Rd., Atascadero, CA 93422.

On December 11, 2019, I served pursuant to Supreme Court Rule 29.5, three
copies on all parties required the following document(s):

1. PETITION FOR WRIT OF CERTIORARI

(x) BY PRIORITY MAIL: Depositing a true and correct copy thereof enclosed in a
sealed envelope with the United States Postal Service with postage prepaid at
Cayucos, California. The envelope was addressed and mailed as follows:

EDWARD N. SISKEL
Corporation Counsel

of the City of Chicago

30 N. LaSalle Street, Suite 800
Chicago, Illinois 60602

The above Counsel for the respondent(s) email address(es) has also been
ELECTRONICALLY served at: N/A

I declare under the penalty of perjury that the foregoing is true and correct.

Executed on December 11, 2019, at Atascadero, California.

  
  

DATED: 12-11-2019
Richard Kleinhammer

Name of person completing this form

Aire
n completing this form)

 

 
